                                                                                 Issue Date
                                                                                      October 31, 2011
                                                                                 Audit Report Number
                                                                                      2012-PH-0001




TO:               Frances W. Bush, Acting Deputy Assistant Secretary for Operations, DO

                  //signed//
FROM:             John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                    3AGA

SUBJECT:          HUD Needed to Improve Its Use of Its Integrated Disbursement and Information
                  System To Oversee Its Community Development Block Grant Program


                                             HIGHLIGHTS

    What We Audited and Why

                  We audited the U.S. Department of Housing and Urban Development’s (HUD)
                  use of its Integrated Disbursement and Information System to provide oversight
                  of activities in its Community Development Block Grant program. The audit was
                  performed based on the Office of the Inspector General’s (OIG) annual audit plan
                  and its strategic plan to help HUD improve its fiscal responsibilities. The
                  objective of the audit was to assess the adequacy of HUD’s use of its System to
                  provide oversight of activities in its Block Grant program.

    What We Found


                  HUD did not adequately use its System to provide oversight of activities under its
                  Block Grant program. HUD was unaware of how grantees used nearly $67
                  million that it provided them to fund more than 1,300 activities that grantees later
                  cancelled in the System. In addition, HUD lacked adequate oversight of almost
                  $3 billion used to fund more than 20,000 long-standing1 open activities that
                  grantees had reportedly not completed for up to 11 years.
1
  For purposes of this review, OIG defined a long-standing program activity as an activity that remained open for at
least 5 years after it was funded through a grantee’s annual consolidated plan.
What We Recommend


           We recommend that HUD implement policies and procedures requiring it to (1)
           periodically use the data contained in its System to provide oversight of cancelled
           and long-standing open or revised activities and (2) evaluate the adequacy of
           actions grantees take regarding cancelled and long-standing open or revised
           activities shown in its System. We further recommend that HUD direct
           responsible grantees to justify the use of nearly $67 million that it disbursed for
           activities that they later cancelled in the System or repay HUD from non-Federal
           funds.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We discussed the report with HUD during the audit and at an exit conference on
           September 21, 2011. HUD provided written comments to our draft report on
           October 14, 2011. For the most part, HUD agreed with the conclusions in the
           report. The complete text of HUD’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding: HUD Did Not Adequately Use Its System To Provide Oversight of Its   5
      Block Grant Program

Scope and Methodology                                                              10

Internal Controls                                                                  12

Appendixes
   A. Schedule of Questioned Costs                                                 13
   B. Auditee Comments and OIG’s Evaluation                                        14
   C. Summary of Cancelled Block Grant Program Activities by Grantee               30




                                           3
                       BACKGROUND AND OBJECTIVE

The Community Development Block Grant program provides annual grants on a formula basis to
entitled cities and counties to develop viable urban communities by providing decent housing
and a suitable living environment and by expanding economic opportunities, principally for low-
and moderate-income persons. The Block Grant program is authorized under Title 1 of the
Housing and Community Development Act of 1974, Public Law 93-383 as amended, 42 U.S.C.
(United States Code) 5301. The U.S. Department of Housing and Urban Development (HUD)
awards grants to entitlement community and State grantees to carry out a wide range of
community development activities directed toward revitalizing neighborhoods, economic
development, and providing improved community facilities and services. Entitlement
communities and States develop their own programs and funding priorities. To be eligible for
funding, every activity, except for program administration and planning, must meet one of the
following national objectives: (1) benefit low- and moderate-income persons, (2) aid in
preventing or eliminating slums or blight, or (3) meet certain community development needs
having a particular urgency.

The Integrated Disbursement and Information System is the drawdown and reporting system for
all of HUD’s Office of Community Planning and Development (CPD) formula grant programs
including the Block Grant program, which is the focus of this audit report. The other CPD
formula grant programs covered by the System are the HOME Investment Partnerships program,
Emergency Shelter Grant, and Housing Opportunities for Persons with AIDS. Grantees also use
the System for tracking American Recovery and Reinvestment Act of 2009 CPD programs. As a
nationwide database, the System is intended to provide HUD with current information regarding
CPD activities underway across the Nation, including funding data. The System is used by HUD
in managing the activities of more than 1,200 HUD grantees, including urban counties and
States, which use the System to plan projects and activities, draw down program funds, and
report on accomplishments. HUD also uses the System to generate reports used within and
outside HUD, including the public, participating jurisdictions, and Congress. Grantees are able
to update, change, cancel, reopen, and increase or decrease project funding in the System without
review by HUD. They also self-report the number of families housed by their projects without a
comprehensive review by HUD.

On its public Web site, HUD displays profiles that show program accomplishments for selected
housing, economic development, public improvement, and public service activities in a summary
format. These profiles contain accomplishments reported, by program year, by entitlement
communities and States and are part of HUD’s effort to provide grantees and citizens with
comprehensive information on its programs. These profiles are further intended to help increase the
amount of information that is available about the performance of grantees to stakeholders and
citizens.

The objective of the audit was to assess the adequacy of HUD’s use of its System to provide
oversight of activities in its Block Grant program.




                                                 4
                                  RESULTS OF AUDIT

Finding: HUD Did Not Adequately Use Its System To Provide
Oversight of Its Block Grant Program
HUD lacked oversight of nearly $67 million that it disbursed to fund more than 1,300 Block
Grant program activities that grantees later cancelled in the System. In addition, HUD did not
have adequate oversight of almost $3 billion associated with more than 20,000 long-standing
open activities that grantees reportedly failed to complete for up to 11 years. This situation
occurred because HUD (1) did not have policies or procedures requiring it to periodically use the
data contained in its System to provide oversight of cancelled and long-standing open or revised
activities and (2) did not evaluate the adequacy of actions grantees took regarding cancelled and
long-standing open or revised activities shown in its System. As a result, HUD could provide
little assurance that significant amounts of Block Grant program funding it disbursed nationwide
(1) benefited low- and moderate-income persons, (2) aided in preventing or eliminating slums or
blight, or (3) met community development needs having a particular urgency.



 Cancelled Activities Totaling
 Nearly $67 Million Lacked
 Oversight


              HUD was unaware of how grantees used nearly $67 million that it disbursed to
              fund Block Grant program activities that grantees later cancelled in the System.
              Our analysis of System data contained in HUD’s list of activities by program year
              and project (PR02 report) showed there were 366 grantees responsible for more
              than 1,300 cancelled activities as of May 2011 (see appendix C).

                         Year            Cancelled activities           Amount drawn
                          2001                   133                     $10,973,923
                          2002                   136                      11,814,409
                          2003                   218                       9,601,698
                          2004                   233                      10,312,224
                          2005                   170                       7,622,761
                          2006                   153                       7,585,416
                          2007                   118                       3,141,137
                          2008                    68                       1,631,361
                          2009                    54                       3,853,404
                          2010                    21                         174,587
                          2011                     1                         138,738
                         Totals               1,305                      $66,849,658



                                                5
           Responsible officials acknowledged that HUD lacked control of cancelled
           activities since grantees were permitted to cancel activities in the System and use
           the associated funds for other purposes without HUD oversight or review. In
           comparison to HUD’s HOME program, HUD’s controls related to cancelled
           activities in its Block Grant program were weak. HUD’s HOME program
           required the grantee to repay funds to other open activities before cancelling a
           HOME program activity. The System training manual provided specific
           instructions for the cancellation of HOME program activities but did not provide
           instructions related to the cancellation of Block Grant program activities. HOME
           regulations at 24 CFR (Code of Federal Regulations) 92.503(b)(2) require that
           any HOME funds invested in a project that is terminated before completion be
           repaid by the participating jurisdiction. Due to the lack of controls relating to
           cancelled Block Grant program activities, grantees may have been able to
           manipulate the system and inaccurately report program activities.

           Regulations at 24 CFR 570.200(a)(2) require that to be eligible for funding, every
           Block Grant program activity, except for program administration and planning,
           meet one of the following national objectives: (1) benefit low- and moderate-
           income persons, (2) aid in preventing or eliminating slums or blight, or (3) meet
           certain community development needs having a particular urgency. HUD should
           begin using the data already reported and available in its System to improve its
           oversight of activities cancelled by grantees to ensure that the grantees use the
           funds to meet a national objective. HUD should also direct responsible grantees
           to justify the use of nearly $67 million that it disbursed for cancelled activities.

Long-Standing1 Open Activities
Totaling $3 Billion Lacked
Adequate Oversight


           The audit identified almost $3 billion in Block Grant funding for long-standing
           open activities which grantees reportedly failed to complete for up to 11 years.
           Our analysis of data contained in HUD’s PR02 report showed there were 804
           grantees responsible for 20,764 long-standing open activities. Of the $3 billion,
           HUD had disbursed $2.8 billion to the grantees as of May 2011.

           Unlike its HOME program, HUD did not have reports on its public Web site to
           identify individual open Block Grant program activities. Under the HOME
           program, regulations at 24 CFR 92.500 require HUD to reduce or recapture
           HOME funds that are not expended within 5 years. Since a similar requirement
           did not exist for the Block Grant program, HUD officials did not focus reviews on
           long-standing open Block Grant program activities. Regulations at 24 CFR
           570.902 did require HUD to review the performance of each entitlement, HUD-
           administered small cities, and insular areas recipient to determine whether each
           recipient carried out its assisted activities in a timely manner. However, HUD
           only considered corrective action such as reductions in future funding if 60 days



                                             6
                  before the end of the grantee’s current program year, the amount of entitlement
                  grant funds available to the recipient, under grant agreements but undisbursed by
                  the U.S. Treasury, was more than 1.5 times the entitlement grant amount for its
                  current program year. 2

                  Recent congressional hearings and media coverage have focused on concerns
                  regarding HUD’s oversight of long-standing open activities in its HOME
                  program. With about $3 billion reportedly associated with long-standing open
                  Block Grant program activities from 2000 to 2005, HUD should focus on
                  improving its oversight of these activities as well.

    Grantees Transferred Funds to
    Other Activities Without HUD
    Oversight


                  The audit identified 3,970 disbursements of Block Grant program funds totaling
                  $89.8 million that grantees received 90 or more days before the setup of the
                  activity in the System. To learn why grantees reportedly drew down funds long
                  before setting up of the activities in the System, we further analyzed data
                  contained in HUD’s drawdown report by voucher number. Our analysis showed
                  that this situation occurred primarily because grantees transferred previously
                  drawn down funds among various other activities without restrictions or HUD
                  oversight. For example, our detailed analysis of two long-standing open activities
                  showed that the funds disbursed to the grantees for approved activities were later
                  split up by the grantee and transferred several times among several other activities
                  over a 5-year period without explanation or HUD oversight.

                  Responsible officials acknowledged that HUD lacked control over grantees’
                  revising activities since they were permitted to revise activities in the System and
                  use the associated funds for other purposes without HUD oversight or review.
                  With at least $89.8 million associated with revised Block Grant program
                  activities, HUD needs to focus on improving its oversight of these revised
                  activities.




2
  24 CFR 570.902 does not cover the States’ Block Grant program and a similar “expenditure timeliness”
requirement did not exist for the States. However, on its public Web site HUD posted a document entitled “State
Community Block Grant Program - Methods for Improving Timely Performance” dated January 2004 which states:
“Although there is no timely expenditure regulatory standard for States, they should realize that such a requirement
is likely to be established in the future. Congress and oversight agencies increasingly judge Block Grant and other
programs by “the bottom line.” Appropriators look at funds allocated in prior years but not yet expended and ask
why additional funds should be appropriated. HUD is concerned that without a serious strategy to reduce the level
of prior year funds unexpended by grantees, the Block Grant program may see its appropriations reduced in the
future.”


                                                         7
External OIG Audit Illustrated
Problems With Long-Standing
Open Activities


              The importance of the need for improved HUD oversight can be further illustrated
              by a recent OIG external audit that reported significant problems with the failure
              of a grantee to justify that its Block Grant program activities complied with
              Federal requirements. In audit report 2011-PH-1002,3 OIG reported that the City
              of Scranton, PA, failed to adequately administer its Block Grant program funds
              and could not demonstrate that it used more than $11.7 million in accordance with
              applicable HUD requirements. Specifically, it (1) failed to maintain adequate
              records identifying the source and application of funds for its HUD-sponsored
              activities, (2) did not maintain required documentation and budget controls
              demonstrating that its expenditures complied with program requirements, (3) did
              not use proper subrecipient agreements, and (4) failed to adequately monitor its
              subrecipients. Additionally, it did not ensure that its activities complied with
              program requirements and allowed an apparent conflict-of-interest situation to
              exist. It is important to note that our analysis of HUD’s PR02 report as of May
              2011 showed that the City had 12 long-standing open program activities included
              in the audit results that were opened in 2004 and 2005 and were funded at more
              than $2.8 million.

Recommendations



              We recommend that the Acting Deputy Assistant Secretary for Operations

              1A.     Implement policies and procedures requiring HUD to periodically use the
                      data contained in its System to provide improved oversight of cancelled
                      Block Grant program activities.

              1B.     Direct responsible grantees to justify the use of $66,849,658 that it
                      disbursed for cancelled Block Grant program activities or repay HUD
                      from non-Federal funds.

              1C.     Implement policies and procedures requiring HUD to periodically use the
                      data contained in its System to provide improved oversight of long-
                      standing open Block Grant program activities.




3
 HUD OIG audit report number 2011-PH-1002, “The City of Scranton, PA, Did Not Administer Its Community
Development Block Grant Program in Accordance With HUD Requirements,” dated November 8, 2010



                                                  8
1D.   Implement policies and procedures requiring HUD to periodically use the
      data contained in its System to provide improved oversight of revised
      Block Grant program activities.

1E.   Periodically evaluate the adequacy of actions grantees take regarding
      cancelled and long-standing open or revised activities shown in its
      System.




                               9
                         SCOPE AND METHODOLOGY

We performed the audit from January to July 2011 at HUD headquarters in Washington, DC, and at
the State of Virginia’s offices located in Richmond, VA. The audit generally covered the period
October 2007 through December 2010 but was expanded when necessary to include other periods.
We relied in part on computer-processed data in HUD’s computer system. Although we did not
perform a detailed assessment of the reliability of the data, we did perform a minimal level of
testing and found the data to be adequate for our purposes. To accomplish our objective, we

       Interviewed officials from HUD CPD including the Office of Block Grant Assistance and
       Office of Affordable Housing.

       Interviewed HUD CPD staff located in Richmond, VA, Philadelphia, PA, Pittsburgh, PA,
       Baltimore, MD, Chicago, IL, Los Angeles, CA, Houston, TX, and New Orleans, LA.

       Interviewed officials from the State of Virginia Department of Housing and Community
       Development.

       Reviewed HUD headquarters’ CPD key staff and employee listings.

       Reviewed position descriptions for key CPD staff in the HUD field offices.

       Reviewed organization charts for HUD CPD headquarters, the HUD CPD Richmond field
       office, and the State of Virginia Department of Housing and Community Development.

       Analyzed System selected data tables and preformatted reports.

       Reviewed pertinent System manuals, the Code of Federal Regulations, HUD handbooks,
       Block Grant notices and training manuals, and a HUD memorandum.

       Reviewed HUD monitoring reports of selected grantees.

       Reviewed the State of Virginia’s action plan, consolidated action plan evaluation report, and
       performance and evaluation report.

       Reviewed the HUD CPD Richmond field office’s risk analysis; disaster grant files for the
       State of Virginia; and approval letters for the State of Virginia’s action plan, consolidated
       action plan evaluation report, and performance evaluation report.

       Reviewed supporting documents relating to activities for the five selected Block Grant
       program draws made by the State of Virginia.

       Reviewed Washington Post articles concerning delayed HOME projects and congressional
       testimony that included HUD’s response to the Washington Post articles.



                                                 10
       Evaluated System data by using Audit Command Language software to determine a
       universe of 690,620 draws. We filtered the universe to determine 8,078 draws for CPD
       activities set up on or after October 1, 2007, that were submitted 90 or more days before the
       setup of the activity. Also, there was a universe of 168,165 activities associated with the
       690,620 draw transactions.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

         Effectiveness and efficiency of operations,
         Reliability of financial reporting, and
         Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                  HUD’s monitoring of its Block Grant program – Policies and procedures that
                  management has implemented regarding open program activities, voucher
                  revisions, cancelled program activities, and repayment for ineligible program
                  activities.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

                  HUD did not adequately use its System to provide oversight of activities
                  under its Block Grant program.



                                                 12
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                           Recommendation         Unsupported 1/
                               number
                                   1B               $66,849,658



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
Comment 2




Comment 3




            15
Comment 4




Comment 5



Comment 6




Comment 7




Comment 8




            16
Comment 5




Comment 9




Comment 5




Comment 5




Comment 5




            17
Comment 5




Comment 5




Comment 5




            18
Comment 10




Comment 10




Comment 11




Comment 5




             19
Comment 5




            20
Comment 5




Comment 5




            21
Comment 9
Comment 5




            22
Comment 5




            23
Comment 9


Comment 5




            24
Comment 5




            25
Comment 10




             26
Comment 10




             27
                         OIG Evaluation of Auditee Comments

Comment 1   We are encouraged that HUD has initiated a broad set of comprehensive actions
            to respond to our audit recommendations. While we agree that the issues in the
            three recommendations cited by HUD are related, important concerns associated
            with each recommendation warranted presenting them separately in our audit
            report.

Comment 2   We are encouraged that HUD plans to issue updated, consolidated guidance to
            help it correct the problems the audit identified.

Comment 3   We are encouraged that HUD has begun to review every long-standing and
            cancelled activity indentified in the audit report and that it plans to resolve any
            questionable costs associated with these activities.

Comment 4   HUD states that its goal is to have System enhancements in place by the end of
            fiscal year 2012, assuming funding availability. These enhancements are critical
            because the audit showed current System controls provided little assurance that
            significant amounts of Block Grant program funding disbursed nationwide were
            used as required. HUD also uses the System to generate reports showing program
            accomplishments used by the public, participating jurisdictions, and Congress.

Comment 5   We evaluated data that was in HUD’s System at the time of the audit. This
            evaluation showed that HUD lacked oversight of nearly $67 million that it
            disbursed to fund more than 1,300 Block Grant program activities that grantees
            later cancelled in the System. In addition, HUD did not have adequate oversight
            of almost $3 billion associated with more than 20,000 long-standing open
            activities that grantees reportedly failed to complete for up to 11 years. After the
            audit, HUD undertook an extensive nationwide effort to review its system data.
            The results of HUD’s review to date are shown in its Appendixes 1, 2, 3, and 4 of
            its comments. While we did not verify the results of HUD’s ongoing review we
            are encouraged that it is now reviewing its System data closely and has increased
            its remote monitoring to include activities with outdated, insufficient or
            questionable data. By using data already available in its System to focus on
            reviewing questionable activities, HUD can more effectively monitor its Block
            Grant program and concentrate more fully on its broader challenges.

Comment 6   HUD states it agrees that grantees should not cancel activities after drawing down
            funds without sufficient justification (and should reimburse the program if HUD
            determines the justification to be unacceptable). However, HUD states that the
            problem is small in relation to the total number of activities initiated. We did not
            verify any of the statistics or percentages in HUD’s comments to this audit report.
            However it is important to note that many of activities comprising the nearly $67
            million had been canceled since 2001 and HUD is only now attempting to obtain
            justification from grantees of how they used the funds. This funding was required
            to be used to (1) benefit low- and moderate-income persons, (2) aid in preventing



                                              28
              or eliminating slums or blight, or (3) meet community development needs having
              a particular urgency.

Comment 7     The narrative field mentioned did not provide enough information for us to
              determine whether the grantee provided adequate justification to support its
              cancellation or revision of a program activity. Additionally, we provided
              responsible HUD officials a comprehensive listing of the cancelled activities on
              two separate occasions during the audit and asked them for an explanation or
              justification for the cancelled activities and they failed to provide it.

Comment 8     We revised the data to remove the nine duplicates and revised the audit report
              accordingly. HUD asserts that data provided during the audit showed long-
              standing activities totaling 20,763. Based on our review of data provided to HUD
              during the audit, the data always showed the number of long-standing activities as
              20,764.

Comment 9     We evaluated data in HUD’s System at the time we performed the audit and did
              not overstate the problem with long-standing open activities. We analyzed data
              contained in HUD’s list of activities by program year and project (PR02 report)
              which displayed the activity status, amount funded, and amount disbursed for the
              grantee’s activities. After the audit, HUD undertook a nationwide effort to
              review the detailed System data. We did not verify the results of the review HUD
              undertook after the audit. However, to address HUD’s concern we further
              clarified our definition of a long-standing program activity as an activity that
              remained open for at least 5 years after it was funded through a grantee’s annual
              consolidated plan.

Comment 10 We did not misinterpret the CDBG timely expenditure requirements and we did
           not assert that the programs are identical. As stated in the report, since similar
           timely expenditure requirements did not exist for the Block Grant program, HUD
           officials did not focus reviews on long-standing open Block Grant program
           activities. We made the comparison because with about $3 billion reportedly
           associated with long-standing open Block Grant program activities from 2000 to
           2005, we believe HUD needed to focus on improving its oversight of these
           activities as well. HUD could potentially use similar System controls and
           techniques as it currently has in its HOME program.

Comment 11 HUD asserts that the nearly $67 million in reported cancelled activities are a
           result of revisions to program activities but has yet to provide support for its
           assertion. It is important to note that we were conservative in our reported
           questioned costs because the audit identified an additional 3,970 disbursements of
           Block Grant program funds totaling an additional $89.8 million that grantees
           received 90 or more days before the setup of the activity in the System. Our
           analysis showed that this occurred primarily because grantees transferred
           previously drawn down funds among various other activities without restrictions
           or HUD oversight.



                                              29
Appendix C

   SUMMARY OF CANCELLED BLOCK GRANT PROGRAM
             ACTIVITIES BY GRANTEE


                                                      Number of
                Grantee   State   Amount drawn     cancelled activities
Chicago                    IL      $5,574,242.64           13
Missouri                   MO       5,455,944.01           20
Schedectady                NY       4,419,826.64           45
Boston                     MA       3,329,242.02            7
New Hampshire              NH       2,453,823.00           23
Salt Lake City             UT       1,525,427.78            1
Canton Township            MI       1,514,884.28           19
Birmingham                 AL       1,475,308.22           27
Rogers                     AR       1,295,821.00           20
Kentucky                   KY       1,290,000.00            2
Nebraska                   NE       1,175,127.00           17
Texas                      TX       1,151,923.90           12
Cleveland                  OH       1,128,444.00           28
Columbia                   SC       1,090,875.14            6
Wisconsin                  WI       1,032,300.00            4
New Orleans                LA         999,995.38            1
Sacramento County          CA         981,333.80            3
Port Arthur                TX         963,160.53           12
Allegheny County           PA         928,219.98            4
Mississippi                MS         733,403.72            7
Hartford                   CT         727,808.59            7
Tampa                      FL         676,537.00            1
Washington                 DC         659,553.17            1
San Bernardino County      CA         602,694.01           10
Vermont                    VT         601,500.00            2
Anaheim                    CA         595,949.00            2
Miami Dade County          FL         533,389.70            6
California                 CA         517,036.31            5
Los Angeles County         CA         499,362.74            4
Newark                     NJ         494,499.41            3
Bergen County              NJ         494,315.73            5
Columbus                   OH         481,000.00            4
Maine                      ME         440,000.00            2
Nassau County              NY         426,017.30           12



                          30
                                                      Number of
                 Grantee   State   Amount drawn    cancelled activities
Lancaster                   PA        419,613.74            3
Niagra Falls                NY        405,269.96           13
Denver                      CO        395,790.61            3
Hennepin County             MN        380,984.57            1
New Jersey                  NJ        359,269.00            1
Hayward                     CA        345,000.00            1
Houma                       LA        335,079.55           14
Utah                        UT        334,095.68            8
Florida                     FL        334,092.98            8
Durham                      NC        320,994.58            5
San Juan                    PR        319,641.57            1
Vacaville                   CA        317,900.00            5
New Mexico                  NM        312,162.54            3
Lynwood                     CA        309,207.94            1
Henrico County              VA        305,350.00            2
College Station             TX        294,860.07            1
Pierce County              WA         292,265.54            3
Portsmouth                  VA        292,124.18            2
South Carolina              SC        287,977.00            8
Augusta                     GA        284,800.30           12
Largo                       FL        282,632.45           28
Los Angeles                 CA        282,096.29            7
Maui County                 HI        257,190.03            2
Riverside County            CA        236,631.36            5
Buffalo                     NY        228,825.00            7
Iowa                        IA        227,873.00           11
Warwick                     RI        217,181.26            2
Massachusetts               MA        216,929.30            2
Kannapolis                  NC        211,813.00            5
North Carolina              NC        205,310.00            4
Santa Maria                 CA        204,947.36            3
Austin                      TX        202,774.43            1
West Lafayette              IN        196,288.75            2
Santa Clara County          CA        195,353.62            1
Anoka County                MN        192,082.25            2
Hammond                     IN        190,740.91            1
Muskegon Heights            MI        187,176.00            2
Hampton                     VA        186,348.72           23
Louisiana                   LA        185,369.78            9
Springdale                  AR        184,305.56            3
Pompano Beach               FL        168,684.26            3




                           31
                                                      Number of
                 Grantee   State   Amount drawn    cancelled activities
Prince George’s County      MD        166,661.86            2
Lancaster                   CA        164,323.00            2
Bayone                      NJ        161,000.00            6
Wyoming                    WY         158,992.00            5
Akron                       OH        158,826.24            2
Oakland                     CA        158,516.00            4
Lynn                        MA        150,000.00            1
Yakima                     WA         143,442.00            5
Hamden                      CT        139,112.27            2
Sonoma County               CA        133,919.10            5
Bethlehem                   PA        130,000.00            1
Rockland County             NY        125,337.42            2
North Dakota                ND        125,000.00            1
Orange County               FL        123,659.75            3
Essex County                NJ        121,795.44            4
Rochester                   NH        118,347.93            5
Myrtle Beach                SC        114,338.00            2
Montgomery County           TX        112,427.58            2
Bridgeton                   NJ        111,439.34            2
New Rochelle                NY        111,183.49            2
Hagerstown                  MD        110,898.88            8
Kern County                 CA        110,835.06            8
Pennsylvania                PA        110,354.27            4
Saginaw                     MI        110,114.10            1
Milpitas                    CA        105,000.00            1
Hanford                     CA        100,000.00            1
Barberton                   OH         99,779.99            3
Tustin                      CA         94,904.51            2
Oak Ridge                   TN         93,265.49            5
Rome                        NY         93,038.44            2
Lakewood                    OH         91,875.85            3
Ventura County              CA         89,394.00            2
Cleveland Heights           OH         88,774.50            1
Johnson City                TN         87,981.67            9
Lakewood Township           NJ         84,919.16            1
Manchester                  NH         83,075.00            1
Oklahoma                    OK         82,075.00            2
Cook County                 IL         81,747.34            4
Fort Pierce                 FL         81,624.55            4
Vallejo                     CA         80,854.00            5
St. Petersburg              FL         80,657.04            1
Monroe                      LA         78,328.03            1


                           32
                                                       Number of
                  Grantee   State   Amount drawn    cancelled activities
Kansas City                  MO         76,458.24            2
Prescott                     AZ         74,034.05            2
Atlanta                      GA         74,000.00            1
Puerto Rico                  PR         73,853.00            3
St. Louis                    MO         72,000.00            2
Attleboro                    MA         69,436.49            1
Baltimore                    MD         68,060.00            3
Jersey City                  NJ         67,375.99            4
Fort Worth                   TX         65,950.77            1
Haverhill                    MA         65,765.00            3
Perth Amboy                  NJ         65,749.76            3
Eugene                       OR         65,000.00            2
Paterson                     NJ         64,545.00            2
Grand Forks                  ND         61,849.25            2
Bowling Green                OH         60,000.00            1
Jefferson City               MO         60,000.00            1
Georgia                      GA         58,750.00            3
New York                     NY         56,254.00            3
Cuyahoga County              OH         56,000.00            1
Irondequoit                  NY         55,882.62            3
Greenville County            SC         54,056.69           29
Richmond                     VA         51,450.00            2
San Diego                    CA         50,628.69            5
Dunkirk                      NY         50,149.00            1
Altoona                      PA         50,000.00            1
Baton Rouge                  LA         50,000.00            1
Bessemer                     AL         50,000.00            2
Luzerne County               PA         50,000.00            1
Tulare                       CA         50,000.00            1
Milwaukee                    WI         49,937.50            1
La Crosse                    WI         49,377.15            2
Shawnee                      OK         48,976.00            3
Sandusky                     OH         48,649.50            1
Pensacola                    FL         47,716.00           10
Rio Rancho                   NM         47,100.00            2
Chesterfield County          VA         45,244.09            1
Lansing                      MI         45,000.00            1
North Little Rock            AR         44,961.16            3
Michigan                     MI         43,900.00            1
Harrisburg                   PA         43,692.26           17
San Joaquin County           CA         43,665.64            4
Clackamas County             OR         43,411.62            8


                            33
                                                      Number of
                 Grantee   State   Amount drawn    cancelled activities
Stockton                    CA         43,149.72            2
Chula Vista                 CA         43,136.80            2
Reno                        NV         42,500.00            1
Atlantic City               NJ         40,927.00            3
West Des Moines             IA         39,600.00            1
Rockford                    IL         39,447.18           75
Hattiesburg                 MS         38,764.40            2
Shreveport                  LA         37,902.37            5
Elyria                      OH         37,207.43            1
Normal                      IL         36,702.00            1
North Bergen County         NJ         36,024.86            2
Yuma                        AZ         35,201.14            2
Hudson County               NJ         35,000.00            1
Saratoga Springs            NY         35,000.00            1
Miramar                     FL         34,913.66            1
Ashland                     KY         34,701.01           10
Virgin Islands              VI         32,870.26            1
Palm Beach County           FL         32,278.80           14
Colorado                    CO         30,640.10            1
Provo                       UT         30,600.00            3
Baltimore County            MD         30,000.00            1
Indianapolis                IN         30,000.00            1
Escondido                   CA         29,775.10            1
Orlando                     FL         27,357.39            1
Jackson                     MS         26,889.63            1
Pharr                       TX         26,746.58            2
Fresno County               CA         25,974.50            1
Santa Fe                    NM         25,853.00            1
Philadelphia                PA         25,113.29            2
Fullerton                   CA         25,000.00            1
Norwalk                     CT         24,715.15            2
Clifton                     NJ         23,169.37            1
Framingham                  MA         22,852.57            3
Antioch                     CA         22,660.55            3
Michigan City               IN         22,514.51            1
Cambridge                   MA         22,187.74           10
Middlesex County            NJ         22,177.00            2
Rocky Mount                 NC         22,000.00            1
St. Louis County            MO         22,000.00            1
Portsmouth                  NH         21,639.85            3
Livonia                     MI         20,809.08            1
Syracuse                    NY         20,689.42            1


                           34
                                                     Number of
                Grantee   State   Amount drawn    cancelled activities
Tyler                      TX         20,686.33            1
Marietta                   OH         20,437.80            2
Spartanburg                SC         20,000.00            1
American Samoa             AS         19,999.90            1
Oakland County             MI         19,973.30            2
Dubuque                    IA         19,128.00            1
Portland                   OR         18,871.43            4
Bentonville                AR         18,273.06            1
Willaimsport               PA         18,103.87            4
Waltham                    MA         17,993.11            3
South Gate                 CA         17,940.00            1
Kent Counth                MI         17,860.10            2
Bensalem Township          PA         17,500.00            1
Prince William County      VA         17,224.04            2
Hillsborough County        FL         16,847.50            1
Berks County               PA         16,773.09            3
Bloomfield Township        NJ         16,729.50            1
Manantee County            FL         16,612.00            1
Evanston                   IL         16,000.00            1
Cedar Falls                IA         15,963.42            2
Richmond                   CA         15,644.38            2
Simi Valley                CA         15,484.57            2
Hazleton                   PA         15,104.52            1
Rhode Island               RI         15,000.00            1
Savannah                   GA         14,967.22            2
Contra Costa County        CA         14,715.00            2
Long Branch                NJ         14,405.50            2
Palatine                   IL         13,832.91            3
Seattle                   WA          13,793.44            1
Des Moines                 IA         13,750.00            1
Cumberland County          ME         13,699.12            1
Long Beach                 CA         13,328.64            1
Flint                      MI         13,040.79            2
Burlington County          NJ         12,961.00            1
Greece                     NY         12,952.45            1
Bowie                      MD         11,630.05            1
Elizabeth                  NJ         11,612.00            1
Miami Gardens              FL         11,333.68           13
York County                PA         11,192.36           40
Anacortes                 WA          11,173.00            1
Moss Point                 MS         10,565.61            4
Albuquerque                NM         10,321.79            1


                          35
                                                      Number of
                 Grantee   State   Amount drawn    cancelled activities
Newburgh                    NY         10,095.00            2
Gulfport                    MS         10,000.00            1
Hopewell                    VA         10,000.00            1
Jacksonville                NC         10,000.00            1
Lake County                 FL          9,774.00            2
Lake County                 OH          9,300.00            1
West Valley City            UT          8,759.78            2
Bismark                     ND          8,715.36            3
Cheektowaga Township        NY          8,369.23            1
Lancaster County            PA          8,110.50            1
Plymouth                    MN          7,924.70            1
Cobb County                 GA          7,649.00            2
Illinois                    IL          7,448.00            2
Bellingham                 WA           7,221.48            2
Taylor                      MI          7,130.03            1
East Providence             RI          7,000.00            1
Milwaukee County            WI          6,895.00            1
Iowa City                   IA          6,864.00            2
White Plains                NY          6,860.00            1
El Paso                     TX          6,814.85            1
St. Joseph                  MO          6,524.60            1
Peabody                     MA          6,500.00            1
Corpus Christi              TX          6,154.00            1
Newton                      MA          6,057.50            3
Arkansas                    AR          5,813.22            1
Evansville                  IN          5,625.00            1
Knoxville                   TN          5,346.39            3
Madera                      CA          5,327.39            2
Madison County              IL          5,170.55            1
Albany                      NY          5,000.00            1
Green Bay                   WI          5,000.00            1
Hinesville                  GA          5,000.00            1
Montebello                  CA          4,947.00            2
Youngstown                  OH          4,829.13           14
Mobile                      AL          4,763.96            1
Tucson                      AZ          4,758.07            3
Mobile County               AL          4,709.55            2
San Mateo County            CA          4,558.28            3
Anderson                    IN          4,107.34            1
Montgomery County           MD          4,098.00            3
Compton                     CA          4,000.00            1
Longmont                    CO          3,867.06            1


                           36
                                                           Number of
                 Grantee        State   Amount drawn    cancelled activities
Lee County                       FL          3,690.70            5
Dearborn Heights                 MI          3,660.15            3
Oregon                           OR          3,500.00            1
Las Vegas                        NV          3,470.97            1
Lee’s Summit                     MO          3,463.91            1
Danbury                          CT          3,424.44            1
Sacremento                       CA          3,407.38            1
Franklin County                  OH          3,404.24            1
Little Rock                      AR          3,403.03            1
Muskegon                         MI          3,330.00            1
Orange County                    CA          3,324.69            2
Penn Hills                       PA          3,290.00            1
East Cleveland                   OH          3,250.00            1
Union Township (Union County)    NJ          3,171.00            7
East Lansing                     MI          3,135.00            1
Kokomo                           IN          3,060.00            1
Gaithersburg                     MD          3,007.00            1
Arizona                          AZ          3,000.00            1
Southfield                       MI          3,000.00            1
Rochester                        NY          2,977.88            4
Fairfield                        CT          2,940.50            1
Easton                           PA          2,900.00            2
East St. Louis                   IL          2,750.00            2
Stanislaus County                CA          2,635.79            1
La Mesa                          CA          2,543.12            1
Lebanon                          PA          2,503.50            1
Anchorage                        AK          2,459.20            1
Ontario                          CA          2,336.58            1
Suffolk County                   NY          2,325.00            1
Johnstown                        PA          2,088.33            1
Pomona                           CA          2,081.44            3
Billings                         MT          2,000.00            1
San Bernadino                    CA          1,735.90            1
Montgomery                       AL          1,678.75            1
San Benito                       TX          1,672.70            1
Clearfield                       UT          1,612.77            1
Milford                          CT          1,605.66            2
Onondaga County                  NY          1,535.00            1
Bristol Township                 PA          1,500.00            1
Minnesota                        MN          1,350.00            1
Fort Myers                       FL          1,250.00            2
Alameda County                   CA          1,151.06            1


                                37
                                                     Number of
                Grantee     State    Amount drawn cancelled activities
Rantoul                      IL           1,100.06         5
Salem                        MA           1,021.11         3
Anderson                     SC             994.09         3
Knox County                  TN             900.00         1
Polk County                  FL             886.09         1
Frederick                    MD             847.30         1
San Jose                     CA             834.22         2
Blacksburg                   VA             830.00         1
Collier County               FL             780.00         1
Delaware County              PA             750.00         1
Fargo                        ND             745.97         1
Wenatchee                   WA              727.90         1
Lake County                  IN             720.00         2
Lompoc                       CA             649.16         1
Pascagoula                   MS             630.00         1
Hidalgo County               TX             586.35         1
Santa Monica                 CA             543.22         1
Chino                        CA             535.00         1
Clearwater                   FL             504.50         1
Middletown                   NY             500.00         1
Downey                       CA             424.61         1
Ketterine                    OH             408.91         1
Hawthorne                    CA             355.00         1
Petersburg                   VA             331.60         1
Montgomery County            PA             313.03         1
Lafayette                    IN             301.00         1
Chester County               PA             281.20         3
Ventura/San Buena Ventura    CA             264.12         1
Cary                         NC             250.00         1
Cicero                       IL             250.00         2
Gadsden                      AL             240.00         1
Owensboro                    KY             185.00         1
Tonawanda                    NY             125.00         1
La Habra                     CA              81.46         1
Dover Township               NJ              75.87         1
Maricopa County              AZ              67.30         1
Pekin                        IL              54.30         4
Rock Hill                    SC              37.56         1
Suffolk                      VA               0.68         1
Totals                              $66,849,658.12       1,305




                            38
